HHS/OIG-Audit--"Review of EPOGEN Reimbursement, (A-01-92-00506)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of EPOGEN Reimbursement," (A-01-92-00506)
February 1, 1993
Complete
Text of Report is available in PDF format (1.41 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the Health Care Financing Administration (HCFA) with information as to whether changes are
needed in the Medicare reimbursement methodology and rate for the drug, EPOGEN (EPO), used to treat end stage renal disease
patients. We have found that changes are needed and have recommended that, in the short run, HCFA consider reducing the
reimbursement rate not to exceed $10.10 per 1,000 units administered which would result in savings of $27.5 million to
the Medicare program and $6.9 million to the beneficiaries. For a long-term solution, we have recommended that HCFA enter
into negotiations with Amgen, the drug manufacturer, to lower the rate and also consider rebates to the Medicare program
based on the volume of EPO usage.